No.
3n tfjc

Supreme Court of tfjc IBnittt li>tate£f
David W. Foley, Jr., and Jennifer T. Foley,
Petitioners,
v.
Orange County, Phil Smith, Carol Hossfield, Mitch Gordon, Rocco Relvini,
Tara Gould, Tim Boldig, Frank Detoma,
Asima Azam, Roderick Love, Scott Richman, Joe Roberts,
Marcus Robinson, Richard Crotty, Teresa Jacobs, Fred Brummer,
Mildred Fernandez, Linda Stewart, Bill Segal, Tiffany Russell,
Respondents.
On Petition for a Writ of Certiorari to the
Florida Fifth District Court of Appeal
PETITION FOR WRIT OF CERTIORARI
♦
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari contains 4,053 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penajty of perjury that the foregoing is true and correct.
Exec
1021.

1
Davn

/ AM J

bjey, Jr.,

Jennifer T.

1

